App. 1
United States Court of Appeals
for the Fifth Circuit
---------------------------------------------------------

No. 19-40498
---------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff—Appellee,
versus
JOHN D. LEONTARITIS,
Defendant—Appellant.
-----------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 1:18-CR-23-1
-----------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Oct. 9, 2020)
Before HIGGINBOTHAM, ELROD, and HAYNES, Circuit
Judges.
CATHARINA HAYNES, Circuit Judge:
John D. Leontaritis was charged with one count of
conspiracy to possess with the intent to distribute and
distribute 500 grams or more of a mixture containing
methamphetamine and one count of conspiracy to
commit money laundering. The jury found Leontaritis
guilty on both counts. The jury also returned a special
verdict finding beyond a reasonable doubt that the
conspiracy involved 500 grams or more of a mixture

App. 2
containing methamphetamine. On the question of
Leontaritis’s accountability, the jury did not find that
he was accountable for more than 50 grams. The district court, concluding that a preponderance of the evidence showed that it was reasonably foreseeable that
Leontaritis was responsible for 176 kilograms of methamphetamine, sentenced Leontaritis to concurrent
terms of 240 months of imprisonment, to be followed
by a total of three years of supervised release.
Leontaritis appeals, arguing that the district court
erred in finding that the amount of drugs reasonably
foreseeable to him within the scope of the conspiracy
was 176 kilograms. Citing Apprendi v. New Jersey, 530
U.S. 466 (2000), and Alleyne v. United States, 570 U.S.
99 (2013), he contends that the district court was
bound by the jury’s finding that he was accountable for
less than 50 grams of methamphetamine and that
the district court’s alleged disregard of this finding
violated the Fifth and Sixth Amendments. We review
Leontaritis’s properly preserved constitutional challenge to his sentence de novo. See United States v. King,
773 F.3d 48, 52 (5th Cir. 2014).
The pertinent jury question and answer are as follows:
You must next determine the quantity of
methamphetamine for which the defendant
was accountable. Indicate below your unanimous finding beyond a reasonable doubt of
the quantity of methamphetamine, if any,
attributable to the defendant. The defendant is accountable only for the quantity of

App. 3
methamphetamine with which he was directly involved and all reasonably foreseeable
quantities of methamphetamine within the
scope of the conspiracy reasonably foreseeable
to him.
___ 500 grams or more of a mixture or substance containing detectable amount of methamphetamine.
___ 50 grams or more but less than 500 grams
of a mixture or substance containing a detectable amount of methamphetamine.
X Less than 50 grams of a mixture or substance containing a detectable amount of
methamphetamine.
The general instructions required proof by the Government beyond a reasonable doubt. Leontaritis argues
that the jury found beyond a reasonable doubt that he
was accountable for less than 50 grams. We read it the
other way: that the Government failed to prove 50 or
more grams beyond a reasonable doubt. In so doing,
our opinion is consistent with the vast majority of circuits that have considered this issue. See United States
v. Lopez-Esmurria, 714 F. App’x 125, 127 (3d Cir. 2017)
(unpublished); United States v. Webb, 545 F.3d 673, 678
(8th Cir. 2008); United States v. Florez, 447 F.3d 145,
156 (2d Cir. 2006); United States v. Magallanez, 408
F.3d 672, 684–85 (10th Cir. 2005); United States v.
Goodine, 326 F.3d 26, 33–34 (1st Cir. 2003); United
States v. Smith, 308 F.3d 726, 744–45 (7th Cir. 2002).
Only the Ninth Circuit came out the way Leontaritis

App. 4
requests. United States v. Pimentel-Lopez, 859 F.3d
1134, 1140 (9th Cir. 2017).
But, either way, Leontaritis’s argument fails to
recognize the difference between Apprendi and Alleyne,
on the one hand, and United States v. Booker, 543 U.S.
220 (2005), on the other hand. The former cases deal
with statutory minimums and maximums. See United
States v. Stanford, 805 F.3d 557, 570 (5th Cir. 2015). As
to those findings, the jury verdict is binding. Apprendi,
530 U.S. at 490; Alleyne, 570 U.S. at 103. On the other
hand, here, the question relates to the calculation and
application of the Sentencing Guidelines, which is
within the judge’s duty, not the jury’s. Booker, 543 U.S.
at 257. The Supreme Court made this clear in United
States v. Watts, which it has not overruled. 519 U.S.
148, 156–57 (1997) (holding that a district judge may
rely on conduct proven by a preponderance of the evidence even if the jury did not find the same conduct
proven beyond a reasonable doubt at trial). Indeed, we
have consistently explained:
[T[he Alleyne opinion did not imply that the
traditional fact-finding on relevant conduct,
to the extent it increases the discretionary
sentencing range for a district judge under
the Guidelines, must now be made by jurors. . . . The Court did not suggest that the
setting of Sentencing Guidelines ranges in a
PSR, which structure but do not control district judge discretion, were subject to the
same requirement.

App. 5
United States v. Hinojosa, 749 F.3d 407, 412–13 (5th
Cir. 2014); see also Stanford, 805 F.3d at 570 (holding
that “[n]either Apprendi nor Alleyne applies to sentencing guidelines” and that a district court may “adjudge[ ] a sentence within the statutorily authorized
range”); United States v. Romans, 823 F.3d 299, 316–
17 (5th Cir. 2016) (holding the same).1
Even if the charge in this case suggested some intent to bind the district judge’s sentencing discretion,
mistakes in jury charges do not change the way a jury’s
role is assessed. See Musacchio v. United States, 136
S. Ct. 709, 715 (2016) (holding that where the jury
question erroneously added an extra element to a
charge, the analysis of sufficiency of the evidence
should not include that added element). “We have
never doubted the authority of a judge to exercise
broad discretion in imposing a sentence within a statutory range.” Booker, 543 U.S. at 233. Indeed, because
mandatory guidelines impinged on the judge’s role,
Booker severed that part of the Guidelines statute. Id.
at 246. We are therefore left with a clean division of
labor: absent waiver of a jury trial, statutory findings
(whether the defendant is guilty or not guilty and
whether his conduct meets the test for a statutory
minimum or maximum) are for jurors to decide,
while sentencing within the statutory minimums and
1

In addition to conflicting with the law of six other circuits,
the Ninth Circuit’s ruling in Pimentel-Lopez is unpersuasive for
the additional reason that it is inconsistent with our case law. We
are bound by our precedent unless the Supreme Court or our en
banc court has changed the relevant law. Jacobs v. Nat’l Drug
Intelligence Ctr., 548 F.3d 375, 378 (5th Cir. 2008).

App. 6
maximums following a guilty verdict and applying the
Sentencing Guidelines is for the district judge to decide.2 Accordingly, we conclude that the district court
did not err in making its decision about drug quantity
for purposes of determining the applicable Sentencing
Guidelines range.
Leontaritis also challenges the district court’s application of a two-level enhancement under § 3B1.3 of
the Sentencing Guidelines based on a finding that he
abused a position of trust or used a special skill to significantly facilitate the commission or concealment of
the offense. The district court found that he possessed
a state-issued license for his car dealership and that
he used the license to facilitate and conceal the offense.
Leontaritis argues that he held no position of trust. He
also asserts that the evidence at trial did not support
the district court’s conclusion that a co-conspirator
purchased multiple cars from Leontaritis. The Government responds that, even if the court erred in this regard, the error is harmless.
We review the district court’s interpretation or
application of the Sentencing Guidelines de novo and
its factual findings for clear error. United States v.
Cisneros-Gutierrez, 517 F.3d 751, 764 (5th Cir. 2008). A
finding of fact is not clearly erroneous if it is plausible
in light of the entire record. Id.

2

We note one exception to this clear division of labor, that is,
a sentencing court may “increase[ ] the penalty for a crime beyond
the prescribed statutory maximum” upon finding that the defendant had a prior conviction. Apprendi, 530 U.S. at 490.

App. 7
“A procedural error during sentencing is harmless
if the error did not affect the district court’s selection
of the sentence imposed.” United States v. DelgadoMartinez, 564 F.3d 750, 753 (5th Cir. 2009) (internal
quotation marks and citations omitted). An error in
calculating the Sentencing Guidelines is harmless if
the district court considered the correct advisory
guidelines range in its analysis and stated that it
would impose the same sentence even if that range applied. United States v. Richardson, 676 F.3d 491, 511
(5th Cir. 2012). Even when a district court fails to consider the correct sentencing guideline range, an error
may be harmless “if the proponent of the sentence convincingly demonstrates both (1) that the district court
would have imposed the same sentence had it not
made the error, and (2) that it would have done so for
the same reasons it gave at the prior sentencing.”
United States v. Ibarra-Luna, 628 F.3d 712, 713–14
(5th Cir. 2010).
At sentencing, the court gave extensive reasons as
to why it imposed a sentence of 20 years. The court
stated that it would have imposed the same sentence
under the factors of 18 U.S.C. § 3553(a) even if the
guidelines were incorrectly calculated and specifically
cited the need for the sentence imposed to serve as just
punishment, to promote respect for the law, and to deter future criminal acts. Additionally, the court imposed the statutory maximum sentence on each count,
opting not to have the sentences run consecutively to
each other, indicating that it had a particular sentence
in mind without reference to the guidelines range.

App. 8
Because the district court’s statements show that the
sentence was not based on the guidelines range and
that the district court would have imposed the same
sentence without the alleged error for the same reasons, any error in imposing the two-level enhancement
for abuse of position of trust is harmless. Cf. id. at 719.
Finally, Leontaritis contends that the district
court erred in failing to award him a two-level reduction for acceptance of responsibility under § 3E1.1 of
the Sentencing Guidelines. He contends that such a reduction was warranted because he admitted to one of
the charges against him.
We “will affirm a sentencing court’s decision not to
award a reduction . . . unless it is without foundation,
a standard of review more deferential than the clearly
erroneous standard.” United States v. Juarez-Duarte,
513 F.3d 204, 211 (5th Cir. 2008) (per curiam) (internal
quotation marks and citation omitted). The defendant
has the burden of proving that the reduction is warranted. United States v. Medina-Anicacio, 325 F.3d
638, 647 (5th Cir. 2003). By his own admission, Leontaritis disputed his conduct on the drug conspiracy
conviction and on aspects of his money laundering
conspiracy conviction. The record shows that he repeatedly argued that he was not involved in a drug
conspiracy and that he lacked the intent to conceal
drug proceeds. Thus, he contested his factual guilt. The
district court’s refusal to award a reduction for acceptance of responsibility is not without foundation.
See Juarez-Duarte, 513 F.3d at 211.

App. 9
Accordingly, the judgment of the district court is
AFFIRMED.

JENNIFER WALKER ELROD, Circuit Judge, concurring in
part1 and dissenting in part:
This case boils down to what question the special
interrogatory asked the jury. Did it ask the jury to determine, beyond a reasonable doubt, the actual amount
of methamphetamine for which Leontaritis was accountable? Or did it ask the jury to decide whether the
government had met its burden with respect to different weight ranges? Because the plain language of the
special interrogatory clearly asks the former question,
I would reverse and remand for resentencing consistent with the jury’s special finding.
I.
In response to a special interrogatory, the jury
found that John Leontaritis was accountable for less
than 50 grams of methamphetamine mixture. Nevertheless, at sentencing the judge found Leontaritis
accountable for 176 kilograms of methamphetamine
mixture: 3,520 times greater than the upper limit of
the jury’s explicit finding. These contradictory factual
1

I agree with the majority opinion that the district court did
not clearly err in applying the public-trust enhancement and
that it was not without foundation in declining to award an acceptance-of-responsibility reduction. I concur in those portions of
the majority opinion.

App. 10
findings cannot be reconciled on a notion of the “division of labor” between the judge and the jury. Nor can
the jury’s special finding plausibly be read as simply
determining that the government did not reach its burden as to the higher amounts.
The special interrogatory instructed the jury to
“[i]ndicate below [its] unanimous finding beyond a reasonable doubt of the quantity of methamphetamine,
if any, attributable to the defendant.” In response the
jury marked, “Less than 50 grams of a mixture or
substance containing a detectable amount of methamphetamine.” The interrogatory and response plainly
give the jury’s affirmative finding that Leontaritis was
accountable for less than 50 grams of methamphetamine mixture.
The only way to read the special interrogatory differently is by actually changing the words of the interrogatory. That is exactly what the government did.
Twice in its brief, the government claims that “[t]he
jury unanimously found beyond a reasonable doubt
that Leontaritis was responsible for up to 50 grams.”
The government’s change of “less than” to “up to” fits
its theory that the jury did not weigh in on amounts
more than 50 grams—a position otherwise untenable
since “less than” is plainly inconsistent with “more
than.” It does not, however, fit the actual words of the
special interrogatory.
The government and the majority opinion rely on
a series of cases to support their a-textual interpretation of the special interrogatory. Neither the majority

App. 11
opinion nor the government’s brief engage with the
language in the special interrogatories at issue in
those cases. Nor, in fact, do the cases themselves. See
United States v. Lopez-Esmurria, 714 F. App’x 125, 127
(3d Cir. 2017); United States v. Webb, 545 F.3d 673,
677–78 (8th Cir. 2008); United States v. Florez, 447 F.3d
145, 156 (2d Cir. 2006); United States v. Magallanez,
408 F.3d 672, 683–85 (10th Cir. 2005); United States v.
Goodine, 326 F.3d 26, 32–34 (1st Cir. 2003); United
States v. Picanso, 333 F.3d 21, 25–26 (1st Cir. 2003);
United States v. Smith, 308 F.3d 726, 743–45 (7th Cir.
2002).2
The language in the special interrogatories in
those cases can be generally categorized into two types:
(i) burden-of-proof language and (ii) jury-finding language. On the burden-of-proof side lies Florez, in which
the special interrogatory directs the jury to “state the
maximum quantity of heroin that the prosecution has
proven beyond a reasonable doubt that the importation involved. 10 kilograms or more ___ 3 kilograms or
2

I reviewed the special interrogatories at issue in each of
these cases, except for Goodine, Picanso, and Smith. In those
three cases, retrieval of the actual verdict form was made difficult
by a lack of electronic records in the district courts for the relevant years. The dockets, however, show that the verdict forms
for Goodine, Picanso, and Smith are available, respectively, at
Docket No. 64, United States v. Goodine, No. 2:01-cr-00025-DBH2 (D. Me. Aug. 01, 2002); Docket Nos. 117-18, United States v.
Picanso, No. 1:99-CR-10343-EFH (D. Mass. May 02, 2002) (Nos.
02-1551, 02-2013); and Docket Nos. 110-16, United States v.
Smith, No. 99-CR-50022 (N.D. Ill. Aug. 08, 2000). Each of these
three cases pre-dates United States v. Booker, 543 U.S. 220
(2005).

App. 12
more ___ 1 kilogram or more ___ 100 grams or more
___.” Verdict Form, United States v. Florez, No. 04-CR80 (E.D. N.Y. May 12, 2005).3
Similarly, the special interrogatory in United
States v. Pineiro, 377 F.3d 464 (5th Cir. 2004)—analyzed by Leontaritis in his reply and at oral argument—contains burden-of-proof language because it
asks the jury to find the defendant guilty or not-guilty
as to different amounts:
Conspiracy to Distribute Marijuana:
___ Guilty of Conspiracy to Distribute 100 kilograms or more of marijuana.
___ Guilty of Conspiracy to Distribute 50 to
100 kilograms of marijuana.
✓ Guilty of Conspiracy to Distribute less
than 50 kilograms of marijuana.
___ Not guilty.
Verdict Form, United States v. Pineiro, No 2:02-CR20024, 2007 WL 496403 (W.D. La. Apr. 07, 2007). Both
the Florez and Pineiro special interrogatories clearly
ask the jury to decide whether the prosecution had met
its burden of proof rather than decide for itself the actual amount at issue in the case.
The special interrogatory in this case, which instructs the jury to “[i]ndicate below [its] unanimous
3

For consistency, I refer to each of the documents containing
general and special interrogatories and jury responses as a “verdict form.”

App. 13
finding beyond a reasonable doubt of the quantity of
methamphetamine, if any, attributable to the defendant,” is markedly different. The special interrogatory
asks the jury to make its own affirmative finding as
to the precise amount of methamphetamine mixture
attributable to Leontaritis. Thus, this special interrogatory falls on the jury-finding side of the ledger, alongside the special interrogatories in Webb, Magallanez,
and Lopez-Esmurria. The Webb special interrogatory
includes the following language:
We, the jury, find beyond a reasonable doubt,
that the quantity of cocaine base (crack cocaine) involved in the conspiracy and that was
either directly attributable to defendant Geno
Webb or reasonably foreseeable to him was:
____ more than 50 grams
✓ more than 5 grams but less than 50 grams
____ less than 5 grams.
Verdict Form at 2, United States v. Rey et al., No. 3:06CR-00573-JAJ-SBJ, 2008 WL 244379 (S.D. Iowa Jan.
28, 2008).
Similarly, the Magallanez verdict form contains
the following special interrogatory and response:
We, the jury, duly empaneled, find beyond a
reasonable doubt as to the amount of a mixture containing methamphetamine distributed or possessed with the intent to distribute
in the conspiracy charged in the Indictment:
(check only one)

App. 14
( ) That the amount of a mixture containing
methamphetamine distributed or possessed
with intent to distribute exceeded 500 grams.
(✓) That the amount of a mixture containing
methamphetamine distributed or possessed
with intent to distribute was more than 50
grams, but less than 500 grams.
( ) That the amount of a mixture containing
methamphetamine distributed or possessed
with intent to distribute was less than 50
grams.
Verdict Form at 1-2, United States v. Magallanez, No.
2:02-CR-125-NDF-7 (D. Wyo. Feb. 12, 2004).
The Lopez-Esmurria special interrogatory contains hybrid language because it instructs the jury to
find the specific quantity of cocaine hydrochloride beyond a reasonable doubt” while including “Not guilty
as it relates to cocaine hydrochloride” as one of the
quantity responses:
On the charge outlined in Count One, we find
that Defendant Mr. Lopez-Esmurria conspired to knowingly and intentionally distribute and possess with intent to distribute the
following amount of cocaine hydrochloride
(check only one):
Five kilograms and more: ___
Less than five kilograms, but equal to or more
than five hundred grams: ___
Any weight less than 500 grams: ✓

App. 15
Not guilty as it relates to cocaine hydrochloride: __.
Verdict at 1–2, United States v. Lopez-Esmurria, No.
1:11-CR-00230-YK, 2014 WL 12672442, (M.D. Pa. Oct.
6, 2014). The verdict form uses similar language for the
heroin-related counts and the counts against other defendants. Id. at 2–8.
None of the circuit cases, however, discusses the
language in the special interrogatory at issue. The only
case cited in the briefs or the majority opinion that actually addresses the language of the special interrogatory is United States v. Pimentel-Lopez, 859 F.3d 1134,
1140, 1142–43 (9th Cir. 2016). The special interrogatory used in Pimentel-Lopez reads:
Having found Jesus Pimentel-Lopez guilty of
the charge in Count I of the indictment, we
unanimously find beyond a reasonable doubt
the amount of a substance containing a detectable amount of methamphetamine attributable to Jesus Pimentel-Lopez to be:
X Less than 50 grams of a substance containing a detectable amount of methamphetamine.
___ 50 grams or more, but less than 500
grams, of a substance containing a detectable
amount of methamphetamine.
___ 500 grams or more of a substance containing a detectable amount of methamphetamine.

App. 16
Verdict Form at 1-2, United States v. Pimentel-Lopez,
No. 2:13-CR-00024-SEH-1 (D. Mont. Sept. 30, 2014);
see also Pimentel-Lopez, 859 F.3d at 1139. Similar
wording was used for Count II. See Verdict Form at 3.
Pimentel-Lopez rejected the government’s argument that the jury verdict in response to the special
interrogatory merely constituted an acquittal on
amounts greater than 50 grams, because the special
interrogatory was not capable of that construction. 859
F.3d at 1141–42. Rather, the jury-finding language in
the special interrogatory could only be read as requesting an affirmative finding by the jury of the actual
amount of methamphetamine mixture attributable to
the defendant. Id. at 1141. So too here. The majority
opinion’s attempts to re-write the special interrogatory
in this case in terms of burden of proof are unavailing.
We must take the verdict form as we find it, and the
jury-finding language in this special interrogatory and
response constitutes an affirmative finding by the jury.
The upshot is that the majority opinion joins what
I believe is the wrong side of a deeply entrenched circuit split, which has developed without careful parsing
of the actual words of the relevant special interrogatories. On one side of the split lies the Ninth Circuit,
which explicitly discussed the language of the relevant
special interrogatory in its opinion. See PimentelLopez, 859 F.3d at 1139, 1141–42. On the other side lie
the Third, Eighth, Tenth, and, now, Fifth Circuits. See
Lopez-Esmurria, 714 F. App’x at 127 (citing United
States v. Smith, 751 F.3d 107, 117 (3d Cir. 2014)); Webb,
545 F.3d at 677–78; Magallanez, 408 F.3d at 683–85.

App. 17
What is most disappointing about the majority opinion
is that it, unlike the Third, Eighth, and Tenth Circuit
opinions, does address and quote the language of the
special interrogatory. Nevertheless, it ignores the actual words of the special interrogatory.
II.
The majority opinion’s approach leads it to a more
fundamental error: its conclusion that the judge can
contradict the jury’s factual findings at sentencing. The
majority opinion cites to United States v. Booker, 543
U.S. 220 (2005) to frame this case in terms of a “clean
division of labor” between the judge and the jury; i.e.,
juries assess guilt and judges assign punishment. The
problem posed by this case, however, goes beyond the
question settled in Booker. While Booker addressed
whether the judge or the jury should decide the facts
of the “real conduct” underlying a statutory offense for
purposes of sentencing, Booker, 543 U.S. at 250–51,
this case asks whether the judge can contradict the
jury once it has already found a portion of those facts.
The majority opinion would have Booker do too
much. The majority opinion claims that “because mandatory guidelines impinged on the judge’s role [in sentencing], Booker severed that part of the Guidelines
statute.” That is simply not accurate. The first part of
the Booker opinion found the guidelines, as written,
unconstitutional because they impinged on the Sixth
Amendment right to a jury trial. Booker, 543 U.S. at
233–34; 244 (discussing Blakely v. Washington, 542

App. 18
U.S. 296, 299, 313, 325 (2004)). The problem was an insufficient role of the jury when the guidelines were
mandatory. The second part of the Booker opinion fixed
the constitutional problem by excising the provision in
the Sentencing Act which made the guidelines mandatory. Id. at 265. A lack of judicial discretion was not the
problem; rather, the addition of judicial discretion was
the easiest remedy given the likely intent of Congress
had it understood the impact of the Sixth Amendment’s jury-trial right on sentencing. Id. at 246, 265.
Booker does not settle all questions regarding the
relationship of the judge and the jury at sentencing,
and it does not address the question presented by this
case: can a district court’s sentence contradict an affirmative finding by the jury? There is certainly reason
to be cautious in exploring this question, and I share
Judge Graber’s concern that the Pimentel-Lopez opinion “suggests that any jury finding as to drug weight
that sets an ‘upper boundary’ precludes a sentencing
judge from finding a drug weight above that boundary
by a preponderance of the evidence.” Pimentel-Lopez,
859 F.3d at 1139 (Graber, J., dissenting from denial of
rehearing en banc) (emphasis in original). That issue
is not presented here, however, where the special interrogatory and response provide an answer to the
question that does not depend on a superiority determination between judge and jury.
In my view, if the jury has affirmatively found a
specific fact, rather than having simply decided that
the government did not meet its burden of proof on
related facts, then the court may not make a finding

App. 19
inconsistent with or impose a sentence beyond a limit
set by the jury’s finding. The court is at all times free
to structure its special interrogatory like the interrogatories in United States v. Pineiro or United States v.
Florez. Verdict Form, United States v. Pineiro, No 2:02CR-20024, 2007 WL 496403 (W.D. La. Apr. 07, 2007);
Verdict Form, United States v. Florez, No. 04-CR-80
(E.D. N.Y. May 12, 2005). Here, however, the government requested this special interrogatory, and the
court adopted it and gave it to the jury. The jury’s findings preclude the sentence that was given.
I respectfully dissent.

App. 20
United States Court of Appeals
for the Fifth Circuit
---------------------------------------------------------

No. 19-40498
---------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff—Appellee,
versus
JOHN D. LEONTARITIS,
Defendant—Appellant.
-----------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 1:18-CR-23-1
-----------------------------------------------------------------------------------------------------------------------------------------------------------

Before HIGGINBOTHAM, ELROD, and HAYNES, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
IT IS ORDERED and ADJUDGED that the judgment of the District Court is AFFIRMED.

App. 21
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS BEAUMONT DIVISION
UNITED STATES
OF AMERICA

§
§
§
v.
§
JOHN D LEONTARITIS §
§
§
§

JUDGMENT IN A
CRIMINAL CASE
Case Number:
1:18-CR-00023-001
USM Number:
25091-479
Joseph C Hawthorn
Defendant’s Attorney

THE DEFENDANT:
⬜ pleaded guilty to count(s)
⬜ pleaded guilty to count(s) before
a U.S. Magistrate Judge, which
was accepted by the court.
⬜ pleaded nolo contendere to
count(s) which was accepted
by the court
☒ was found guilty on count(s)
1 & 2 of the Inafter a plea of not guilty
dictment
The defendant is adjudicated guilty of these offenses:
Title & Section/Nature of
Offense

Offense
Ended

21:846; 21 U.S.C. § 841(b)(1)(C)
Conspiracy To Possess With
Intent To Distribute and
Distribution of Less Than
50 Grams of Methamphetamine

05/01/2017 1

Count

App. 22
18:1956(h); 18 U.S.C. § 1956(a)
Conspiracy To Commit Money
Laundering

06/30/2017 2

The defendant is sentenced as provided in pages 2
through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
⬜ The defendant has been found not guilty on count(s)
⬜ Count(s)

⬜ is ⬜ are dismissed on the
motion of the United States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.
May 17, 2019
Date of Imposition of Judgment
Marcia A. Crone
Signature of Judge
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE
Name and Title of Judge
5/17/19
Date

App. 23
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of: 240 Months
This term consists of 240 months as to Count 1, and
240 months as to Count 2 of the Indictment, with
Count 2 to be served concurrently with Count 1.
☒

The court makes the following recommendations
to the Bureau of Prisons:

The Court recommends to the Bureau of Prisons that
the defendant receive appropriate drug treatment
while imprisoned.
The Court recommends that the defendant be incarcerated in Texarkana, Texas, if eligible.
☒

The defendant is remanded to the custody of the
United States Marshal.

⬜

The defendant shall surrender to the United
States Marshal for this district:
⬜ at

⬜ a.m. ⬜ p.m. on

⬜ as notified by the United States Marshal.
⬜

The defendant shall surrender for service of sentence at the institution designated by the Bureau
of Prisons:
⬜

before 2 p.m. on

⬜

as notified by the United States Marshal.

⬜

as notified by the Probation or Pretrial
Services Office.

App. 24
RETURN
I have executed this judgment as follows:
Defendant delivered on
at
of this judgment.

to
, with a certified copy

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of: three (3) years
terms. This term consists of terms of three years
as to each of Counts 1 and 2, with both terms to
run concurrently.
MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.

App. 25
⬜

The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future
substance abuse. (check if applicable)

4.

⬜

You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)

5.

☒

You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)

6.

⬜

You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. § 20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
which you reside, work, are a student, or were
convicted of a qualifying offense. (check if applicable)

7.

⬜

You must participate in an approved program
for domestic violence. (check if applicable)

You must comply with the standard conditions
that have been adopted by this court as well as with
any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish the basic expectations for your behavior while on

App. 26
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside
within 72 hours of your release from imprisonment,
unless the probation officer instructs you to report to a
different probation office or within a different time
frame.
2. After initially reporting to the probation office, you
will receive instructions from the court or the probation officer about how and when you must report to the
probation officer, and you must report to the probation
officer as instructed.
3. You must not knowingly leave the federal judicial
district where you are authorized to reside without
first getting permission from the court or the probation
officer.
4. You must answer truthfully the questions asked by
your probation officer.
5. You must live at a place approved by the probation
officer. If you plan to change where you live or anything
about your living arrangements (such as the people
you live with), you must notify the probation officer at
least 10 days before the change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation

App. 27
officer within 72 hours of becoming aware of a change
or expected change.
6. You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must permit the probation officer to take any items prohibited
by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the probation officer excuses you from doing so. If you do not
have full-time employment you must try to find fulltime employment, unless the probation officer excuses
you from doing so. If you plan to change where you
work or anything about your work (such as your position or your job responsibilities), you must notify the
probation officer at least 10 days before the change. If
notifying the probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within
72 hours of becoming aware of a change or expected
change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you
know someone has been convicted of a felony, you must
not knowingly communicate or interact with that person without first getting the permission of the probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer
within 72 hours.

App. 28
10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or dangerous
weapon (i.e., anything that was designed, or was modified for, the specific purpose of causing bodily injury or
death to another person such as nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential human
source or informant without first getting the permission of the court.
12. If the probation officer determines that you pose
a risk to another person (including an organization),
the probation officer may require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the person
and confirm that you have notified the person about
the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with
a written copy of this judgment containing these conditions. I understand additional information regarding
these conditions is available at www.txep.uscourts.gov.
Defendant’s Signature

Date

App. 29
SPECIAL CONDITIONS OF SUPERVISION
You must provide the probation officer with access to
any requested financial information for purposes of
monitoring your efforts to obtain and maintain lawful
employment and income.
You must not participate in any form of gambling.
You must participate in a program of testing and treatment for drug abuse and follow the rules and regulations of that program until discharged. The probation
officer, in consultation with the treatment provider,
will supervise your participation in the program. You
must pay any cost associated with treatment and testing.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
Assessment
TOTALS

JVTA
Fine Restitution
Assessment*
$200.00
$.00
$.00

* Justice for Victims of Trafficking Act of 2015, Pub. L. No.
114-22
** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after September 13, 1994, but before April 23, 1996.

App. 30


The determination of restitution is deferred until
. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such determination.



The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.



Restitution amount ordered pursuant to plea
agreement $



The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitution or fine is paid in full before fifteenth day
after the date of the judgment, pursuant to 18
U.S.C. § 3612(f). All of the payment options on
Sheet 6 may be subject to penalties for delinquency and default, pursuant to 18 U.S.C.
§ 3612(g).



The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:


the interest requirement is waived for
 fine  restitution.



the interest requirement for
 fine  restitution is modified as follows:

App. 31
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A

☒

Lump sum payment of $ 400.00 due immediately, balance due


not later than

☒

in accordance  C,  D,  E, or
☒ F below; or

, or

B



Payment to begin immediately (may be combined  C,  D, or  F below); or

C



Payment in equal
(e.g., weekly,
monthly, quarterly) installments of
over a period of
(e.g., months or years),
to commence
(e.g., 30 or 60 days) after
the date of this judgment; or

D



Payment in equal 20 (e.g., weekly, monthly,
quarterly) installments of $
over a period of
(e.g., months or years),
to commence
(e.g., 30 or 60 days) after
release from imprisonment to a term of supervision; or

E



Payment during the term of supervised release will commence within
(e.g., 30 or
60 days) after release from imprisonment.
The court will set the payment plan based on
an assessment of the defendant’s ability to
pay at that time; or

F

☒

Special instructions regarding the payment of
criminal monetary penalties:

App. 32
It is ordered that the Defendant shall
pay to the United States a special assessment of $200.00 for Counts 1 and 2, which
shall be due immediately. Said special
assessment shall be paid to the Clerk,
U.S. District Court.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are
made to: the Clerk, U.S. District Court. Fine & Restitution, 211 West Ferguson Street Rm 106, Tyler, TX
75701.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
 Joint and Several
See above for Defendant and Co-Defendant
Names and Case Numbers (including defendant
number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.
 Defendant shall receive credit on his restitution
obligation for recovery from other defendants who
contributed to the same loss that gave rise to defendant's restitution obligation.


The defendant shall pay the cost of prosecution.



The defendant shall pay the following court
cost(s):

App. 33
☒

The defendant shall forfeit the defendant’s interest in the following property to the United States:
The sum of $1,378,109.00 in U.S. Currency

Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties,
and (9) costs, including cost of prosecution and court
costs.
DENIAL OF FEDERAL BENEFITS
(For Offenses Committed On or After
November 18, 1988)
FOR DRUG TRAFFICKERS PURSUANT TO 21
U.S.C. § 862
IT IS ORDERED that the defendant shall be:
☒

ineligible for all federal benefits for a period of 5
YEARS



ineligible for the following federal benefits for a
period of (specify benefit(s))
OR



Having determined that this is the defendant’s
third or subsequent conviction for distribution of
controlled substances, IT IS ORDERED that the
defendant shall be permanently ineligible for all
federal benefits.

App. 34
FOR DRUG POSSESSORS PURSUANT TO 21
U.S.C. § 862(b)
IT IS ORDERED that the defendant shall:


be ineligible for all federal benefits for a period of



be ineligible for the following federal benefits for a
period of (specify benefit(s))



successfully complete a drug testing and treatment program.



perform community service, as specified in the
probation and supervised release portion of this
judgment.
IS FURTHER ORDERED that the defendant
shall complete any drug treatment program and
community service specified in this judgment as a
requirement for the reinstatement of eligibility for
federal benefits.
Pursuant to 21 U.S.C. § 862(d), this denial of
federal benefits does not include any
retirement, welfare, Social Security, health,
disability, veterans benefit, public housing,
or other similar benefit, or any other benefit
for which payments or services are required
for eligibility. The clerk is responsible
for sending a copy of this page and the
first page of this judgment to:
U.S. Department of Justice, Office of
Justice Programs, Washington, DC 20531

App. 35
United States Court of Appeals
for the Fifth Circuit
---------------------------------------------------------

No. 19-40498
---------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff—Appellant,
versus
JOHN D. LEONTARITIS,
Defendant—Appellee.
-----------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 1:18-CR-23-1
-----------------------------------------------------------------------------------------------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed Dec. 16, 2020)
(Opinion 10/9/20, 5 CIR., _______, _______ F.3D _______)
Before HIGGINBOTHAM, ELROD, and HAYNES, Circuit
Judges.
PER CURIAM:
Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel Rehearing is DENIED. No member of the panel nor judge
in regular active service of the court having requested
that the court be polled on Rehearing En Banc (FED. R.

App. 36
APP. P. and 5TH CIR. R. 35), the Petition for Rehearing
En Banc is DENIED.

App. 37
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF
AMERICA
VS.
JOHN D. LEONTARITIS

|
|
|
|
|
|

DOCKET
1:18-CR-00023
MAY 17, 2019
10:20 A.M.
BEAUMONT, TEXAS

VOLUME 1 OF 1, PAGES 1 THROUGH 29
REPORTER’S TRANSCRIPT OF SENTENCING
BEFORE THE HONORABLE MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE
(Filed Jun. 4, 2019)
APPEARANCES:
FOR THE
GOVERNMENT:

FOR THE
DEFENDANT:

MICHELLE S. ENGLADE
U.S. ATTORNEYS OFFICE
350 MAGNOLIA AVE.,
SUITE 150
BEAUMONT, TEXAS 77701
JOSEPH HAWTHORN
2630 LIBERTY AVENUE
BEAUMONT, TEXAS 77702
BRYAN LAINE
1045 SOUTH REDWOOD
BEAUMONT, TEXAS 77625

App. 38
COURT REPORTER:

RUTH C. WEESE, RDR-CSR
FEDERAL OFFICIAL
REPORTER
300 WILLOW, SUITE 104
BEAUMONT, TEXAS 77701

PROCEEDINGS REPORTED USING
COMPUTERIZED STENOTYPE;
TRANSCRIPT PRODUCED VIA
COMPUTER-AIDED TRANSCRIPTION.
[2] (OPEN COURT, DEFENDANT PRESENT.)
THE COURT: The next matter is No. 1:18CR-23, Defendant 1, United States of America versus
John D. Leontaritis.
MS. ENGLADE: Your Honor, Michelle
Englade for the Government. We’re ready to proceed.
MR. HAWTHORN: Your Honor, Lum Hawthorne and Bryan Laine for the Defendant. We are
ready to proceed.
THE COURT: All right. Please come forward.
Have counsel for the Defendant read and discussed the
presentence report, including any revisions?
MR. HAWTHORN:

Yes, Your Honor, we

have.
THE COURT: Has counsel fully explained
the report to the Defendant?
MR. HAWTHORN:

Yes, Your Honor.

App. 39
THE COURT: Mr. Leontaritis, do you fully
understand the presentence report?
THE DEFENDANT:

Yes, ma’am.

THE COURT: Does counsel or the Defendant wish to make any comments, additions or corrections to the report?
MR. HAWTHORN:
objections, Your Honor.
THE COURT:

Other than my written

Right. Is there anything else?

MR. HAWTHORN:

No, ma’am.

[3] THE COURT: And, Mr. Leontaritis, does
the report adequately cover your background?
THE DEFENDANT:

Yes, ma’am.

THE COURT: Has the Government read the
report and does it wish to make any comments, additions or corrections?
MS. ENGLADE: We have read the report,
Your Honor, and we have no changes to make.
THE COURT: All right. We can go through
the objections. Please go in the order in which the probation officer discusses them. Mr. Hawthorn, are you
ready?
MR. HAWTHORN:
THE COURT:

I think so, Your Honor.

Okay.

App. 40
MR. HAWTHORN:

Do you want me to pro-

ceed?
THE COURT:

Yes, go ahead. Please proceed.

MR. HAWTHORN: Our first objection, Your
Honor, is to that portion of paragraph 4 page 4 that
states the Defendant participated with Cloyd Guillory
in the offense of distributing methamphetamine to the
degree that it implies that he actually was involved in
drug transactions because the evidence and then the
trial showed that he did not actually participate in any
drug transactions.
THE COURT:
[4] respond?

Does the Government wish to

MS. ENGLADE: Yes, Your Honor. I think
they mistakenly inferred that the offense which the
probation officer was talking about was distributing
methamphetamine, when, in fact, the offense was conspiracy to possess with intent to distribute methamphetamine.
As the probation officer goes through it, there is
different roles in a direct conspiracy and that’s what
the jury found Mr. Leontaritis guilty of, is the conspiracy to possess with intent to distribute, not the actual
distribution.
And I believe the probation report adequately labels it as such.
THE COURT: Right. He was charged with
conspiracy, the participation in a drug trafficking

App. 41
conspiracy. I think the evidence was such that it could
be inferred he did participate in the drug trafficking
conspiracy. There are different roles in the conspiracy.
And so that’s overruled. I note what you’re saying.
MR. HAWTHORN:
THE COURT:

All right.

MR. HAWTHORN:
THE COURT:

I understand.

May I proceed?

Yes.

MR. HAWTHORN: Objection No. 2 is to that
[5] portion of paragraph 8 that states that he bought
automobiles in addition to the Lamborghini from the
Defendant because the evidence at trial I believe
showed only that one car that was sold to him.
Your Honor was here during the entire trial; you
heard the testimony. I’m referring to my memory about
what the testimony was. So you heard it as well as I
did. Maybe you heard something different, but I didn’t
hear about any cars that were sold to Guillory by Mr.
Leontaritis other than the Lamborghini Aventador.
MS. ENGLADE: Your Honor, from my recollection of the testimony from Mr. Guillory was that I
believe he purchased at least five vehicles from Mr.
Leontaritis and those were evidenced in the text messages as they were talking about the GL and the
Wraith and those other automobiles. So I do believe
that; and furthermore, the 404(b) testimony that was
presented shows that there was also many more vehicles that Mr. Leontaritis sold to drug dealers.

App. 42
THE COURT: I think there is evidence of
other vehicles. Now, whether legal title was transferred, probably not. I think that was part of the whole
scheme, but it seems like they were associated with
other vehicles that Mr. Guillory at least could drive
and members of his family could drive. So I think that
that [6] is accurate. Is it exactly purchasing? Certainly
Mr. Leontaritis had these vehicles and let Mr. Guillory
and others use them. But Lamborghini I agree with
was the focus of most of this testimony.
MR. HAWTHORN: Yes, Your Honor. I think
there were some other vehicles that were traded in, but
as far as actual sales to Mr. Leontaritis, I think the
only sale was of the Lamborghini Aventador.
THE COURT:

Do you have evidence of other

sales?
MS. ENGLADE: Yes, Your Honor. I think Mr.
Guillory and Wanda Ellis both testified to that. And I
know Mr. Rovey has got his notes. Do we have in your
notes how many vehicles Mr. Guillory may have testified to?
MR. ROVEY:

The five is what I recall.

MS. ENGLADE:
THE COURT:
overruled.

The five.
All right. The objection is

MR. HAWTHORN: Our objection No. 3 is
to that part of paragraph 7 that indicates that the
Defendant knew Guillory was selling pills to the

App. 43
Defendant’s employees because as I recall there was no
evidence of that fact.
MS. ENGLADE: Your Honor, I believe the
[7] testimony of Cloyd Guillory was that he was selling
pills to employees of Mr. Leontaritis at the Global Motor site.
THE COURT: I recall there was testimony
about that. Certain named individuals. And clearly, Mr.
Leontaritis was aware Mr. Guillory was a drug dealer,
so I think the objection is overruled.
MR. HAWTHORN: Our objection No. 4, Your
Honor, is to that part of paragraph 11 on page 6 which
states the Defendant directed his dealership employees to deposit cash which was derived from drug trafficking proceeds into bank accounts.
And I think the probation department has agreed
with that and has revised the paragraph to reflect that
there was no evidence of that.
THE COURT: Well, I think there was evidence about him not filing cash reporting documents
having to do with cash deals.
MR. HAWTHORN: Well, this objection, Your
Honor, has to do with him – whether or not there was
any evidence that he directed his dealership employees
to deposit cash which was derived from drug proceeds
and to – and directed employees not to submit cash reporting documents.

App. 44
The fact that they might not have been filed, I believe the evidence showed that the 8300s were not [8]
filed, but there is no evidence that he directed that they
not be filed or that he did not file them, only that they
were not filed.
THE COURT: But he was the owner of the
dealership and operator. So I mean apparently probation has cleared up the situation, but I think that there
was money deposited in the business bank accounts
and the currency transaction reports were not filed.
There was certainly evidence of that.
MR. HAWTHORN: I don’t think there was
any evidence, Your Honor, of any of the cash being deposited into any of these bank accounts.
MS. ENGLADE: Your Honor, I believe there
was. And I think this was initially put in there to determine whether Mr. Leontaritis was in a leadership
position. We do think there was evidence that was presented that he did instruct people to deposit money.
We just weren’t able to show that they were actually
members of this conspiracy. So we agreed to take
that out and not go forward on a leadership role on Mr.
Leontaritis because we don’t think the evidence was
fully developed enough to show that. But there was certainly evidence that he did have others deposit money
in his accounts; and that was through the testimony of
Brett Rovey and the bank records.
[9] THE COURT: Well, I think like the
400,000, I don’t think there were – that was deposited.

App. 45
I think that was – they didn’t file currency transaction
reports on that.
MS. ENGLADE:

That’s correct, Your Honor.

THE COURT: So I think – it’s overruled. I
think probation has changed the language, but I think
it – there was money received in the bank accounts, but
the currency transaction reports weren’t filed. There
was evidence of that. But I mean sustained to the extent that probation fixed it, but overruled otherwise.
Okay. Next one.
MR. HAWTHORN: Your Honor, our next objection is to the calculation of the quantity of methamphetamine for which the Defendant is accountable.
THE COURT: No, I thought the next one
had to do with the 400,000 about the cousin.
MR. HAWTHORN: I’m sorry, you are right,
Your Honor. I’m sorry. We object to the statement in
paragraph 11 page 6 that states he directed his cousin
to pick up $400,000 from Guillory on at least one occasion because there was no evidence of that at trial to
my recollection.
THE COURT:
Government say?

I think – well, what does the

[10] MS. ENGLADE: Your Honor, there was
extensive evidence of that fact. Mr. Guillory talked
about it extensively, explained why he was on the
phone with Mr. Leontaritis the entire time that the
cousin was picking it up and that Mr. Guillory actually

App. 46
even took some photos at the same time. They were introduced into evidence.
We don’t have any photos of the driver, but Mr.
Guillory testified extensively about Mr. Leontaritis
saying I’m sending my cousin to come pick up the
money and Mr. Leontaritis on the phone with Mr. Guillory as Mr. Guillory was handing it to his cousin.
THE COURT: I think there was evidence of
that. Whether he was really his cousin or not I don’t
know, but I mean he directed a person to get the money
from Mr. Guillory.
MS. ENGLADE:
THE COURT:
son as his cousin.

Right.

So I think you refer to the per-

MS. ENGLADE:

Right.

THE COURT: I don’t know he was really his
cousin, but it’s overruled to the extent it – I mean there
was evidence of picking up money, that Mr. Leontaritis
directed someone to pick up money from Mr. Guillory.
Okay. The quantity?
[11] MR. HAWTHORN: Yes, Your Honor.
That number – objection No. 6. We object to the calculation of the quantity of methamphetamine for which
the Defendant is accountable which is contained in
paragraphs 11 through 18 on the grounds first that
part of the paragraph 11 page 6 provides that the determination of the amount of methamphetamine for
which the Defendant is responsible is correlated to the

App. 47
amount of money laundered. And that’s not the proper
method for determining whether a Defendant is accountable for a particular quantity of drugs.
That is in some circumstances an acceptable
amount to determine the quantity of drugs, but not
whether or not a Defendant is personally responsible
for those drugs. Rather, the test is whether or not the
quantity, how much the quantity and the entire operation is, and the amount for which each Defendant knew
or should have known that was involved in the conspiracy.
The jury was asked to make that determination
and they did make the determination and they were
explained that they had to do it by beyond a reasonable
doubt and they held that the quantity for which he was
accountable was the lowest quantity, 50 grams or below. We actually think that it was zero, the amount
should be zero, because there was no scenario that I’m
aware of [12] where a jury could conclude that there
was an amount somewhere between zero and 49, like
a particular transaction or something of that sort.
I think what the jury decided was that he was selling cars to drug dealers. He knew that he was selling
cars to drug dealers, but he was not involved in any
way in the drug dealing. And because he was not involved in any way in the drug dealing, then he should
be personally responsible for less than the 50 grams. I
think that’s where that decision came from. It’s certainly logical.

App. 48
And so we object to any finding above zero actually
concerning the drug quantity for which Mr. Leontaritis
is personally accountable.
MS. ENGLADE: Your Honor, I think this is
the main crux of the argument here today. First of all,
the jury’s finding as to what he was personally attributed to was only part of the jury’s verdict. As the
Court may remember, the jury found Mr. Leontaritis
guilty of the entire drug conspiracy involving 500
grams or more. But because they made the additional
finding of what he was personally responsible for, pursuant to Haynes that only caps the amount of the statutory maximum of 20 years. It does not in any way
according to Alleyne, Supreme Court case, that you are
restricted to stay within that amount.
[13] In fact, it says, and as Mr. Hawthorn just
pointed out, the jury found that beyond a reasonable
doubt.
The Court is able to look at all relevant conduct
and a preponderance of the evidence standard. And I
think the Court heard all the evidence, can certainly
find, especially with a jury’s verdict that the conspiracy
was 500 grams or more; and I think we’re still having
troubles trying to distinguish what Mr. Leontaritis’
role in this was. He was a co-conspirator as a banker
for this drug conspiracy. We’re not claiming he distributed marijuana – methamphetamine, and that’s I
think the argument of the defense.
Here we’re arguing that he – his role, which was
as banker, was – the jury found was attributable up to

App. 49
less than 50 grams which makes it a statutory maximum. But Alleyne and other Fifth Circuit and through
all the other circuits allow the Court to consider all
other relevant conduct that is reasonably foreseeable
to Mr. Leontaritis to be considered in sentencing the –
in determining the proper guideline range.
So that’s why we ask the Court to follow the probation officer’s recommendation, because there’s certainly ample evidence to show that the guideline range
was properly calculated by probation.
[14] THE COURT: I think by a preponderance of the evidence that’s correct. The Court is looking
at this from a different standard. The Court is very familiar with drug conspiracies. I think perhaps the jury
didn’t quite understand how drug conspiracies work
and different people play different roles. And I think
Mr. Leontaritis was vital to this conspiracy as in the
banking function. Different conspiracies have different
ways of organizing and I think he participated. I think
the amount – I can – from the $800,000 and that’s extrapolating – that’s 176 kilograms. I think there’s certainly evidence of that by a preponderance of the
evidence.
And I think the case that you cited, the Ninth Circuit case, was just kind of an outlier because other
cases don’t do that. They allow the Court to determine
quantities by a preponderance of the evidence as long
as the Court doesn’t impose a sentence that’s in excess
of the statutory maximum and that’s what is already
set. That’s the 240 months.

App. 50
So in those cases we conclude United States v.
Lopez-Esmurria 714 Federal Appendix 125 3rd Circuit,
2017 and United States v. Webb 545 F.3d 673, 8th Circuit 2008, United States v. Magallanez 408 F.3d 672,
10th Circuit 2005, United States v. Goodine, 326 F.3d
26, 1st Circuit 2003, United States v. Smith, 308 F.3d
726, 7th Circuit, [15] 2002. There’s also – let me find
the whole site on that.
MS. ENGLADE: Your Honor, I believe it’s
749 F.3d 407, 5th Circuit 2014.
THE COURT: Right. So I think that it’s just
not in line with the other courts especially in the 5th
Circuit so the objection is overruled. I think it can be
based on conversion of money and drugs and I think
there was ample evidence that Mr. Leontaritis was responsible for a far greater quantity than what the jury
found by a preponderance of the evidence. It’s overruled.
MR. HAWTHORN: No. 7, the Defendant objects to paragraph 21 for its failure to give him the two
point reduction for acceptance of responsibility. It was
Mr. Leontaritis’ feeling that he was guilty of selling
cars to drug dealers for cash knowing that they were
drug dealers, but that – and the only reason that he
actually went to trial was to determine what his personal responsibility or accountability was for the drugs
since he did not deal any of the drugs himself.
I do not – I do not follow the Government’s theory
that he was a banker. He sold cars to drug dealers and
he borrowed money from drug dealers. The amount of

App. 51
money that he paid back to Guillory was a repayment
of the loan. It was not some kind of a [16] banker/
customer relationship. Banks have the money. Guillory
had the money. Leontaritis didn’t have any money. He
was borrowing some of it. He paid back some of it. Most
of it he did not pay back.
THE COURT: Well, I assume money laundering, disguising the source of these funds that were
drug proceeds funds, I mean I don’t think he accepted
responsibility. We had a long trial about this whole incident and today the Court’s findings about the quantity of drugs certainly is inconsistent with what he’s
saying. So I don’t think he’s entitled to acceptance of
responsibility.
And then a lot of the rest of these is having to do
with Level 42, it’s a calculation of the quantity. I don’t
know if there was something different from what you
have already said.
MR. HAWTHORN: Yeah. In all due respect,
I can see where this is headed. And I don’t know of any
reason for me to actually orally go over all these objections. The objections are in my written objections to the
presentence report and also in my sentencing memorandum. I think the record is clear as to what my objections are. And so I’ll just – unless you want me to
read the rest of these objections, I’ll just stand on the
written objections that I have made and also stand on
[17] my sentencing memorandum and the authority
cited in my sentencing memorandum.

App. 52
THE COURT: All right. I don’t know if any
of these other ones are anything different than that. A
lot of this has to do with the calculation that I overruled the objections. Referring to him as the bank, I
think that was since he played a financial role in this
conspiracy. I think bankers is too broad a term, but
that seems to be kind of captures the essence of what
he did. So that’s overruled.
Abuse of a position of trust, No. 14, he was a licensed automobile dealer. And the problem was he
wasn’t transferring the titles so that would help mask
the source of the funds so the drug dealers could have
the use of these cars.
And then but it was never on paper to show that
and a responsible dealership would transfer the titles
and file the notice of return and all those things. So I
think he did abuse the position of trust having to do
with the licensed automobile dealer.
15 and 16, it’s about grouping, it has to do with
calculation of quantities and objections of recommended punishment and term. Those were overruled
because the Court thinks that probation properly calculated these quantities and the amounts and the [18]
responsibility. So it’s – those are overruled. Okay.
MR. HAWTHORN:
objections or –
THE COURT:

Are you going on to more

No, I think that’s all of them.

MR. HAWTHORN: Your Honor, I just want
to make sure that the record reflects that you have

App. 53
overruled No. 8 and No. 9, No. 10, No. 11, No. 12,
No. 13, No. 14, 15, 16 and 17 so that the record will
properly reflect –
THE COURT:

Yes.

MR. HAWTHORN:
those objections.
THE COURT:

– your actions on all

Yes, I did overrule those ob-

jections.
MR. HAWTHORN:

Okay.

THE COURT: The Court finds the information contained in the presentence report has sufficient indicia for reliability to support its probable
accuracy. The Court adopts the factual findings, undisputed facts and guideline applications in the presentence report.
Based upon a preponderance of the evidence presented and the facts in the report, while viewing the
sentencing guidelines as advisory, the Court concludes
that the total offense level is 42, the criminal history
level is II, which provides an advisory guideline range
of 360 to 480 months.
[19] Does defense counsel wish to make any remarks on behalf of the Defendant?
MR. HAWTHORN: Yes, Your Honor. I think
what this is about is the Defendant’s knowingly selling
automobiles, luxury automobiles, to people that he
knew were drug dealers. And that enabled them to
get possession of automobiles that they might not

App. 54
otherwise have been able to get. Indirectly I suppose
that it helped their drug dealing business. But that’s
all he did. And he should be punished accordingly. He
shouldn’t be punished as a drug dealer who the Government and the presentence officer think should get
the same sentence as the head of the drug conspiracy,
Mr. Guillory. To me that’s ridiculous. And the fact that
they want him to be held accountable for 176 kilograms of methamphetamine is also ridiculous.
The jury found less than 50. What they are asking
is to increase the jury’s decision 7,520 percent. That is
crazy. He should be sentenced according to 18 U.S.C.
3553(a) mainly on whether or not he is guilty as a launderer of drug proceeds, which he is, more than a member of a drug conspiracy.
But even a finding – since the jury found him
guilty of a drug conspiracy, 3553(a) paragraph 6 says
that he should be sentenced according to others who
are [20] similarly situated. Sheila Guillory, who was
much more culpable in this case than John Leontaritis,
was sentenced to 27 months, 27 months, and they are
asking for 30 years. That’s ridiculous, Your Honor.
In my opinion, he should not get any more than
Sheila Guillory got. Anything else would to me not be
a fair sentence. So that’s what I am asking on behalf of
the Defendant for.
THE COURT: All right. Mr. Leontaritis, do
you wish to make a statement?

App. 55
THE DEFENDANT: Yes, Your Honor. I had
some stuff to say, but based on the Court’s decisions I
would like to point out one thing. I read all my – all the
probation officer’s writings and all the sentence memorandums written by the prosecution. And I believe
that they have miscited one point, that as the judge the Honorable Judge Jennifer Elrod pointed out in
Haynes and Porter, Your Honor, those Defendants sentences were vacated because they were sentenced on a
conspiracy wide quantity jury finding instead of an individualized drug jury finding.
And their sentence were vacated because of the
fact at sentencings the judge said – the Honorable
Judge of the 5th Circuit said that they should be sentenced based on an individual quantity finding. And
that is the [21] verdict of Haynes and why their sentence were vacated. That is why my verdict form was
actually designed, Your Honor, was because it not only
sets the minimum sentence for an individual, it actually fulfills Alleyne in the fact that the jury must find
beyond a reasonable doubt any element of crime. And
so Haynes actually states that a quantity of drug that
affects the minimum sentence of an individual is an
element of crime. And that is what the jury actually
found and that is why the jury is required to rule beyond a reasonable doubt not only as to the quantity
that I am personally responsible for, but all foreseeable
quanties to the conspiracy.
And that is what they did. So beyond a reasonable
doubt that’s what they decided according to Haynes.
I’m only pointing this out to the Court, Your Honor,

App. 56
because I have spent hours and hours and hours researching this. That is not to say, Your Honor, that I
don’t take responsibility for what I did. There is a lot
of things I regret and I will accept whatever punishment you state right now, Your Honor. And tell my family that I love them very much and everything is going
to be okay.
Thank you, Your Honor.
THE COURT: Does the attorney for the
Government wish to make any remarks?
MS. ENGLADE: Your Honor, we stand by
our [22] previous – our sentencing memorandum and
the previous rulings by the Court that the Court can
determine by a preponderance of the evidence all relevant conduct as part of this. Haynes specifically only
deals with the statutory maximum and as I know the
Court is well aware, will not go above the statutory 20
years for each count.
Furthermore, that according to the guidelines, because the guidelines are higher than 240 months, the
sentencing guidelines Section 5G1.2(b) says that the
Court shall impose consecutive sentences to the extent
necessary to meet the minimum total punishment
which would be 360 months in this case. Your Honor,
we would ask the Court follow that.
THE COURT: Does counsel know of any reason why sentence should not be imposed at this time?
MR. HAWTHORN:

No, Your Honor.

App. 57
THE COURT: Well, the Court thinks that a
variance is in order in this case, but not to the extent
that Mr. Hawthorn suggests. I think a sentence of 240
months on both counts would be appropriate. That’s
the statutory maximum on both counts. I think that he
was responsible for the 176 kilograms extrapolating
from the $800,000 that he laundered, probably more
than that, but that we know that’s an amount that he
admitted and that there is evidence of that, hard evidence of the [23] 800,000.
So I think, though, that it should be 240 and that
to run concurrently, so a total of 240. So pursuant to
the Sentencing Reform Act of 1984 – and I think that
that more closely represents his involvement in the
criminal conspiracy.
MS. ENGLADE:
say for the record.
THE COURT:

Your Honor, if I could just

Yes.

MS. ENGLADE: I know Mr. Hawthorn is relating his sentence to that of Cloyd Guillory; however,
Cloyd Guillory accepted responsibility and did not receive an abuse of power assessment like Mr. Leontaritis
did. Furthermore, Mr. Leontaritis was guilty of the
money laundering too, which Mr. Cloyd Guillory was
not charged or convicted of.
And as far as Ms. Guillory, the 27 months, it’s apparent that her role was much less. She was not inducing this conspiracy continue. She was hiding the fact of
her son’s involvement in this drug conspiracy. So, Your

App. 58
Honor, if the Court is going to compare sentences and
use it to –
THE COURT: I am not comparing sentences.
I agree he is not similarly situated to Mr. Guillory exactly or Mrs. Guillory. It’s not that. I just think [24]
that this is an appropriate sentence for his involvement in the conspiracy.
MS. ENGLADE: And that’s fine, Your Honor.
I just wanted the record to be clear about the disparate
sentencings.
THE COURT:

Right.

MS. ENGLADE:
THE COURT:

Thank you.

They’re different.

MS. ENGLADE:

Thank you.

THE COURT: I think this captures his role
better than the other sentences. Pursuant to the Sentencing Reform Act of 1984, having considered the factors noted in 18 U.S.C., Section 3553(a), and after
having consulted the advisory Sentencing Guidelines,
it is the judgment of the Court that the Defendant,
John D. Leontaritis, is hereby comitted to the custody
of Bureau of Prisons to be imprisoned for a total term
of 240 months. This term consists of 240 months as to
Count 1 and 240 months as to Count 2 of the indictment with Count 2 to be served concurrently with
Count 1.
Furthermore, the term of imprisonment imposed
by this judgment shall run consecutively with the

App. 59
Defendant’s term of imprisonment for the following
conviction: Theft of Public Money, U.S. District Court,
Southern District of Texas, Houston, Texas, docket no.
[25] 4:17-CR-00198-001.
The sentence is within an advisory guideline
range that is greater than 24 months, and the specific
sentence is imposed after consideration of the factors
set forth in 18 U.S.C. Section 3553(a).
The Court recommends to the Bureau of Prisons
that the Defendant receive appropriate drug treatment while imprisoned. The Court finds the Defendant
doesn’t have the ability to pay a fine. The Court will
waive the fine in this case.
It is ordered the Defendant must pay the United
States a special assessment of $100 as to each Counts
1 and 2, for a total of $200, which is due and payable
immediately.
The Defendant is ineligible for all federal benefits
listed in 21 U.S.C. Section 862(d), for a period of five
years from the date of this order. Upon release from
imprisonment the Defendant shall be on supervised release for a term of three years. This term consists of
terms of three years as to each of Counts 1 and 2, with
both terms to run concurrently.
Within 72 hours of release from the custody of the
Bureau of Prisons, the Defendant must report in person to the probation office in the district to which the
Defendant is released.

App. 60
[26] The Defendant must not commit another federal, state or local crime and must comply with the
standard conditions that have been adopted by this
Court.
In addition, the Defendant must comply with all
applicable mandatory conditions and the following
special conditions. The Defendant must provide the
probation officer with access to any requested financial information for purposes of monitoring the Defendant’s efforts to obtain and maintain lawful
employment and income. The Defendant must not participate in any form of gambling.
The Defendant must participate in a program of
testing and treatment for drug abuse and follow the
rules and regulations of that program until discharged.
The probation officer, in consultation with the treatment provider, will supervise the Defendant’s participation in the program.
The Court finds this to be a reasonable sentence in
view of the nature and circumstances of the offenses
entailing the Defendant’s participation in a drug trafficking conspiracy involving the distribution of methamphetamine and in a conspiracy to commit money
laundering, the Defendant’s using an automobile dealership that he owned and operated which specialized
in luxury vehicles to assist an individual that he knew
[27] to be a drug dealer to conceal drug proceeds derived from the distribution of methamphetamine pills,
the drug dealer’s purchasing a Lamborghini valued at
more than $400,000 from the Defendant which he kept

App. 61
registered to his dealership to preclude it from being
viewed as an asset of the drug dealer, the drug dealer’s
making a cash down payment of 225,000 and making
subsequent monthly cash payments totaling more
than $400,000 for the vehicle which were deposited
into his business bank accounts but for which proceed
transaction reports were not filed as required by law,
the drug dealer’s purchasing other vehicles from the
Defendant under similar conditions in various
schemes to conceal the drug proceeds, that drug proceeds were the source of funds, the Defendant’s dealership holding liens on the vehicles to avoid seizure by
law enforcement, the drug dealer’s providing another
$400,000 to the Defendant in exchange for the use of
other vehicles and allowing the cash to be returned to
him in different manners to conceal that the money
was derived from the sale of drugs, the Defendant’s
leasing a penthouse on behalf of the drug dealer, purchasing a home for the drug dealer’s family and paying
for several luxury trips for the drug dealer and his
companions in order to launder the funds, Defendant’s
directing another person to pick up $400,000 in cash
from the drug dealer, [28] the Defendant’s responsibility for a minimum of $800,000 in laundered funds
which represents 176 kilograms of methamphetamine,
his prior conviction for theft of public money, and his
history of substance abuse. It will serve as just punishment, promote respect for the law, and deter future violations of the law.
Although the Court finds the guideline calculations announced at the sentencing hearing to be

App. 62
correct, to the extent they were incorrectly calculated,
the Court would have imposed the same sentence without regard to the applicable guideline range in light of
the factors set forth in 18 U.S.C. Section 3553(a).
The Defendant has a right to appeal. If the Defendant is not able to pay the cost of the appeal, you
may appeal in forma pauperis. The clerk of the court
will prepare and file a notice of appeal upon the Defendant’s request. With few exceptions, any notice of
appeal must be filed within 14 days.
The presentence report is made part of the record
and is placed under seal except counsel for the Government and defense may have access to it for purposes of
appeal.
Were there any other counts?
MS. ENGLADE: No, Your Honor, but we
have filed a final order of forfeiture. We do ask the
Court [29] to sign that and make it part of the sentence
in this case.
THE COURT:

That’s granted.

The Defendant is remanded to the custody of the
United States Marshal and then to the custody of the
United States Federal Bureau of Prisons to begin the
service of sentence. Is there a particular facility you
are requesting?
MR. HAWTHORN:

Texarkana.

THE COURT: All right. I’ll recommend Texarkana. If there is nothing further then you’re excused.

App. 63
MS. ENGLADE:

Thank you, Your Honor.

(Proceedings concluded, 10:58 a.m.)

COURT REPORTER’S CERTIFICATION
I HEREBY CERTIFY THAT ON THIS DATE,
MAY 31, 2019, THE FOREGOING IS A CORRECT
TRANSCRIPT FROM THE RECORD OF PROCEEDINGS.
/s/ Ruth C. Weese
RUTH C. WEESE, RDR-CSR

App. 64
===========================================================================================
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
===========================================================================================
UNITED STATES
OF AMERICA
versus
JOHN D. LEONTARITIS

§
§
§
§
§

CASE NO. 1:18-CR-23
Filed Dec. 4, 2018

VERDICT OF THE JURY
(Filed Dec. 4, 2018)
As to the offense charged in Count One of the Indictment, conspiracy to possess with intent to distribute or distribute a mixture or substance containing a
detectable amount of methamphetamine in violation of
21 U. S C. § 846, we, the Jury, find:
JOHN D. LEONTARITIS (check one)
X
(Guilty)

(Not Guilty)

If you have found the defendant guilty of Count
One of the Indictment, then you must consider the following special issues.
You must determine the quantity of methamphetamine attributable to the overall scope of the conspiracy. Indicate below your unanimous finding beyond a
reasonable doubt of the quantity, if any, applicable to
the overall scope of the conspiracy.

App. 65
X 500 grams or more of a mixture or substance containing a detectable amount of
methamphetamine
50 grams or more but less than 500 grams
of a mixture or substance containing a detectable amount of methamphetamine
Less than 50 grams of a mixture or substance containing a detectable amount of
methamphetamine
You must next determine the quantity of methamphetamine for which the defendant was accountable.
Indicate below your unanimous finding beyond a reasonable doubt of the quantity of methamphetamine, if
any, attributable to the defendant. The defendant is accountable only for the quantity of methamphetamine
with which he was directly involved and all reasonably
foreseeable quantities of methamphetamine within
the scope of the conspiracy reasonably foreseeable to
him.
500 grams or more of a mixture or substance containing a detectable amount of
methamphetamine
50 grams or more but less than 500 grams
of a mixture or substance containing a detectable amount of methamphetamine
X Less than 50 grams of a mixture or substance containing a detectable amount of
methamphetamine

App. 66
As to the offense charged in Count Two of the Indictment, conspiracy to commit money laundering in
violation of 18 U.S.C. § 1956(h), we, the Jury, find:
JOHN D. LEONTARITIS (check one)
X
(Guilty)

(Not Guilty)

If you have found the defendant guilty of Count
Two of the Indictment, then you must consider the following special issues. Please check any and/or all that
apply.
X

The government has proved beyond a
reasonable doubt that the defendant intended to promote the distribution of a
controlled substance (methamphetamine) by the conspiracy.

X

The government has proved beyond a
reasonable doubt that the defendant
knew that the transaction or transactions
were designed to conceal the proceeds of
the distribution of a controlled substance
(methamphetamine) by the conspiracy.

X

The government has proved beyond a
reasonable doubt that the defendant
knowingly engaged in, or attempted to
engage in, a monetary transaction or
transactions involving criminally derived property, in excess of $10,000.00,
that was derived from the distribution of

App. 67
a controlled substance (methamphetamine).
12-4-18
Date

K.M.
Foreperson’s Initials

